ES, IG-98-022, Risks Associated with ARC's Acquisition of Military Family Housing
RISKS ASSOCIATED WITH ARC'S
ACQUISITION OF MILITARY FAMILY HOUSING
IG-98-022
Executive Summary
Background
Due to base realignment and closure decisions, Onizuka Air Station,
California, is excessing 693 housing units near Ames Research Center (ARC).
Some of this housing is immediately adjacent to ARC, and some is off-site
about a half mile from ARC (see map in Appendix B).  ARC plans to acquire the
housing units for two reasons.  First, ARC needs to maintain the adjacent
housing as a noise buffer between the Center's wind tunnels and the
surrounding community.  Second, ARC management believes that the low-cost
housing would both retain and attract military tenant organizations to defray
the cost of maintaining and operating Moffett Federal Airfield (MFA).  The
ARC plan asserts that the housing operation adds no additional cost to ARC
operations and was approved by NASA Headquarters.
Objectives
The overall objective of the audit was to evaluate the operational and
financial benefits of acquiring the Onizuka Air Station housing units.
Specifically, we determined:
whether acquiring the housing units will operationally benefit NASA
or ARC,
the estimated financial benefit to NASA of acquiring the housing
units, and
the legal and environmental issues that may affect the value of
acquiring the housing units.
Additional details on the objectives, scope, and methodology are in
Appendix A.
Results of Audit
ARC management believes that the housing units can be acquired at no cost
and little risk to NASA.  However, a cost-benefit study performed for the
Navy that supports ARC's assertion that housing revenue will at least equal
the operating costs does not fully identify and consider all costs associated
with the housing.  In addition, ARC has not resolved all legal and
environmental issues associated with the housing.  As a result, the planned
housing acquisition and operation could incur additional operational costs
for ARC and increase liability for NASA.
Leasing the housing operation to a military resident agency is a key
element of ARC's plan.  The resident agency will accept responsibility for
activities in the housing areas and contract with a commercial property
management firm to operate the housing.  As of April 1998, ARC had not yet
identified a military resident agency for the housing operation.
Recommendations
This report contains recommendations to help ARC:
ensure that the proposed military family housing operation incurs no
cost for NASA and involves no use of Agency personnel, and
minimize NASA's exposure to potential tort and environmental liability
from continuing the military family housing operation.
Management's Response
Management concurred with all recommendations and will take actions to
prevent the use of NASA resources to operate the military family housing and
to minimize the Agency's exposure to tort and environmental liability.  We
consider planned actions responsive to the intent of the recommendations.